No.

IN THE SUPREME COURT OF THE UNITED STATES

IRVING ALEXANDER RAMIREZ, Petitioner,
v.

STATE OF CALIFORNIA, Respondent.

PETITION FOR WRIT OF CERTIORARI
TO THE CALIFORNIA SUPREME COURT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner, through counsel, asks leave to file the attached Petition for a
Writ of Certiorari without prepayment of costs and to proceed in forma pauperis.

Petitioner has previously been granted leave to proceed in forma pauperis in
the following court(s): California Supreme Court, No. $155160, Alameda County
Superior Court, No. 151080.

Petitioner’s affidavit or declaration is not attached because the court below

appointed counsel in the current proceeding. The appointment was made under the
following provision of law: California Penal Code section 1240. A copy of the Order

of appointment is appended.

Dated: September 13, 2021

Respectfully Submitted,

MARY K. McCOMB
State Public Defender for the State of
California

 

Supervising Depufty State Public Defender
*Counsel of Record

OFFICE OF THE STATE PUBLIC
DEFENDER

1111 Broadway, Suite 1000
Oakland, CA 94607
Maria.Morga@ospd.ca.gov

Tel: (510) 267-3300

Fax: (510) 452-8712

Counsel for Petitioner
SUPREME COUR?
@ FILED
NOV 05 2010
Frederick K. Ohirich Glerk

No. 8155160 Deputy ~~

IN THE SUPREME COURT OF CALIFORNIA

 

 

THE PEOPLE, Respondent,
v

IRVING ALEXANDER RAMIREZ, Appellant.

 

 

 

 

 

 

Upon request of appellant for appointment of counsel, the State Public Defender is
hereby appointed to represent appellant Irving Alexander Ramirez for the direct appeal in

the above automatic appeal now pending in this court.

GEORGE
Chief Justice

 
